                           Peace Corps
                           Office of Inspector General




Volunteer Alan McDonald stands in front of a water tank, part of     Volunteer Caroline Cates presents, with her counterpart & family,
his Peace Corps Partnership Program-funded aqueduct                  her SPA-funded stove project




                                                             Flag of Panama




                                           Final Audit Report:
                                           Peace Corps/Panama
                                                IG-11-09-A
                                                                                                  September 2011
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an audit of Peace Corps/Panama May 17 –
June 2, 2011. At the time of the audit, the post had 52 staff members and a 2011 budget of
$3.3 million supporting 252 Volunteers.

The post’s financial and administrative operations were effective and in overall compliance with
agency policies and federal regulations. However, the post did not have an adequate process in
place to control medical supplies, resulting in incomplete and inaccurate medical supply
inventories. The post also lacked an adequate process to ensure security re-certifications were
obtained for staff hired through personal services contracts. Re-certifications are required every
five years and help ensure staff are trustworthy.

Further areas of improvement include Volunteer allowances surveys, property management, and
imprest fund management. In addition, we identified approximately $12,500 in funds to be put
to better use if the post reduces its number of vehicles and another $2,000 if the post reduced its
imprest fund level.

Management concurred with all 11 of our recommendations and took timely action to remediate
our findings. The 11 recommendations remain open pending receipt and review of documents to
be submitted.




Final Audit Report: Peace Corps/Panama                                                                i
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

TABLE OF CONTENTS ......................................................................................................................1

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          MEDICAL SUPPLIES ..........................................................................................................................................1

          PERSONAL SERVICES CONTRACTS ...................................................................................................................2

          VEHICLE MANAGEMENT ..................................................................................................................................2

          IMPREST FUND MANAGEMENT .........................................................................................................................3

          VOLUNTEER ALLOWANCES ..............................................................................................................................5

          PROPERTY MANAGEMENT................................................................................................................................6


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .......................................................8

LIST OF RECOMMENDATIONS .........................................................................................................9

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................10

APPENDIX B: LIST OF ACRONYMS ................................................................................................11

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................12

APPENDIX D: OIG COMMENTS.....................................................................................................17

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................18
                                         BACKGROUND
OIG conducted an audit of Peace Corps/Panama (hereafter, “the post”) May 17 – June 2, 2011.
We previously performed an audit October 17 – November 5, 2004 and issued our report March
31, 2005 (IG-05-09-A). OIG also conducted a follow-up audit March 19 – 23, 2007 and issued
our report June 22, 2007.

The first group of Volunteers arrived in Panama in 1963. The program was closed in 1971 for
political and security reasons and resumed in 1990. At the time of our visit, 252 Volunteers,
including five Peace Corps Response Volunteers, were working in five program areas: teaching
English, community environmental conservation, sustainable agriculture systems, environmental
health, and community economic development. In 2011, the post’s budget was approximately
$3.3 million.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.


                                         AUDIT RESULTS
MEDICAL SUPPLIES

The post did not fully implement the agency’s medical supplies inventory policy.

The Peace Corps Manual section (MS) 734 specifies the post’s requirements relating to medical
supplies inventory. The policy was revised in November 2008 to strengthen internal controls
and procedures over medical supplies. It states, “Assurance that effective controls are in place is
achieved through maintaining appropriate segregation of duties, accurate record keeping, secure
storage, and periodic inventories.”

The medical inventory control log did not include controlled substances. These were recorded
on listings maintained by the lead Peace Corps Medical Officer (PCMO). We found the
PCMO’s listings to be inaccurate for two controlled substances, one of which contained
discrepancies for three different strengths and expiration dates.

We tested 15 items on the medical inventory control log. We found one discrepancy in quantity
and three discrepancies in expiration dates versus the actual inventory on the shelves.

In addition, the country director (CD) did not submit the medical inventory control log to the
Office of Medical Services (OMS) annually as required by MS 734.3.5.3. The log is an
important tool in OMS’ review and oversight over post drugs. The CD informed us that,




Final Audit Report: Peace Corps/Panama                                                            1
subsequent to the audit, the post submitted the log to OMS; accordingly, no recommendation is
being made.

Maintaining accurate inventory records and timely reporting to OMS are important in order to
control medical supplies. Effective internal controls and procedures are required to prevent theft,
loss, or abuse of the post’s medical supplies inventory and provide effective medical services to
Volunteers.

        We recommend:

        1. That the medical supplies inventory control clerk include controlled substances on the
           medical inventory control log and ensure that the log contains accurate quantities and
           expiration dates.


PERSONAL SERVICES CONTRACTS

Security background certification updates were missing for eight personal services contracts.

MS 743.8.2 states:

        For all host country resident PSCs contracted for 260 work days or more, the Country Director must ask the
        Regional Security Officer (RSO) or his or her designee to conduct a background investigation…of the
        proposed PSC prior to executing the contract…. The Country Director must request recertification of a
        continuously employed PSC every five years in accordance with 12 FAM 420.

We reviewed the security certifications for all 37 local personal services contracts and found that
re-certifications were not obtained for eight staff (22 percent). The eight staff received security
certifications when they were hired, but had not received recertifaction after five years.
Specifically of the eight certifications: four expired in 2008, two expired in 2009, and two
expired in 2010. The CD acknowledged that “this has been a major effort” to obtain all required
security certifications and recertifications and told us that the post was coordinating with the
RSO’s office.

        We recommend:

        2. That the country director ensure that the post has obtained the eight missing security
           background updates and that these are placed in the staffs’ contractor files.


VEHICLE MANAGEMENT

The post had not reassessed its required number of vehicles and made appropriate
adjustments.

Vehicles represent the agency’s single most significant owned assets at a post, and their
utilization and maintenance are major post costs. The importance of the agency’s vehicle


Final Audit Report: Peace Corps/Panama                                                                          2
investment makes an ongoing review and determination of the number of vehicles needed for
efficient and cost-effective operations essential.

The post had been at an authorized level of 12 vehicles. In anticipation of expected growth in
the number of Volunteers in 2011 and subsequent years, the post requested and the region
approved an increase in the authorized vehicle level to 13, and the post acquired an additional
vehicle in late 2010. According to the post’s Vehicle Fleet Plan dated September 2010, the
additional vehicle was earmarked for a regional office that the post intended to open.
Subsequent to the vehicle’s arrival, a determination was made that, due to budgetary constraints,
the post would not in the foreseeable future open and maintain a regional office and further, that
the post would begin to phase out one of its five programs and completely eliminate it by the end
of 2012. At the time of the audit, the post had in its fleet two Toyota Land Cruisers each with
odometer readings of about 140,000 kilometers that were due to be replaced. Any reduction
should consider the disposal of one or both of these vehicles.

Regional management told us that they concurred in principle with a reduction in vehicles, but
they thought that the post should review its future needs before adjusting the authorized number
of vehicles. However, with the decision to not open a regional office in the foreseeable future
and to eliminate of one of the five existing programs, the post may be able to reduce its fleet by
at least one vehicle. Recent sales of similar vehicles indicate that the post could sell the vehicle
for approximately $12,500.

           We recommend:

           3. That the region and the post, in consultation with headquarter fleet management,
              determine the appropriate number of vehicles required at the post and reduce the
              number of vehicles accordingly.


IMPREST FUND MANAGEMENT

Staff did not clear their interim cash advances in a timely manner.

Overseas Financial Management Handbook (OFMH) section 13.18.2 requires that interim cash
advances be “liquidated (accounted for) within three (3) working days.” The OFMH further
states, “It is the responsibility of the cashier to monitor the clearance of interim advances and to
notify the Administrative Officer if advances are not cleared within 3 days for direct follow-up
action”

We found that staff did not consistently clear their interim advances within the required three
days. Further, deficiencies were not always brought to the attention of the director of
management and operations (DMO) 1 for follow-up action. We noted on the Monthly Checklist
for Verifying Officer accompanying the cashier reconciliation, a regular comment that interim
cash advances were being cleared within five days. However, we found deficiencies longer in
duration. To help resolve the problem, the cashier instituted email reminders to delinquent staff
1
    The director of management and operations is the new title for the administrative officer.


Final Audit Report: Peace Corps/Panama                                                                 3
and told us that the reminders had some effect in improving the situation but that timely
liquidation remained a problem.

Clearing interim advances in a timely manner ensures a prompt return of unused funds and helps
to minimize imprest fund cash required to be on hand.

        We recommend:

        4. That the director of management and operations remind post staff of the requirement
           to clear their interim cash advances within three working days and monitor the status
           to ensure that advances are cleared in a timely manner.

        5. That the cashier immediately notify the director of management and operations of
           delinquent interim cash advances for follow-up.


The cashier’s imprest fund level required analysis to determine the appropriate level.

The Foreign Affairs Manual Handbook of the U.S. Department of State, section 4 FAH-3 H-
393,4-2, states, “The advance [to the cashier] may not exceed the actual needs of the cashier.” It
further states, “Emphasis must be placed on reducing the advance to the minimum level required
for the cashier’s needs.”

The permanent advance to the post’s principal cashier has been at $22,000 since December 2005.
It was last reviewed by the U.S. Depository Office of the State Department (USDO) in May
2010. The post increasingly used electronic funds transfers as well as its purchase card for
payments. As evidence that the permanent advance was in need of a reduction, we found that
fiscal year 2011 replenishments were being retained in the bank account for up to two weeks
before being retrieved by the cashier. This indicated that the replenishments were not
immediately needed to fund imprest fund activity.

During our audit, the USDO’s regional cashier monitor visited the post. He performed a review
of the post’s imprest operations and an imprest fund analysis, and subsequently recommended to
the post that the cashier’s permanent advance be reduced to $20,000. The DMO informed us that
the post intends to reduce the fund’s advance to the recommended level. Future anticipated
changes at the post, such as the phasing out and elimination of one of its five programs by the
end of 2012, may result in opportunities to further reduce the imprest fund permanent advance.
This is in line with the CD’s statement to us that the post “needs to look for ways to reduce our
imprest fund.”

We also noted that the alternate cashier maintained an emergency advance of $5,000 - $7,000 to
cover cash needs in the event the principal cashier was out of the office. Our review of activity
of the alternate cashier’s fund indicated that the amount was too high. Subsequent to the audit,
the country director and the DMO determined to reduce the amount of the emergency advance to
$2,500.




Final Audit Report: Peace Corps/Panama                                                             4
        We recommend:

        6. That the post, in coordination with the Office of the Chief Financial Officer, conduct
           an analysis of the cashier’s imprest fund level and take appropriate action based on
           the post’s analysis and the regional cashier monitor’s recommendation.

        7. That the Office of the Chief Financial Officer establish a process for monitoring
           imprest fund requirements on an ongoing basis in order to determine if a further
           reduction of the advance is appropriate in the future.


The cashier did not set the combination to the imprest fund safe annually.

MS 760.5.2 states:

        The cashier must personally set the combination to the safe. The Embassy Regional Security Officer
        (RSO) or technician assisting with the changing of the combination is not authorized to set or know the
        combination to the safe…. The combination should be changed annually, whenever there is a change in
        cashiers, or whenever the combination becomes known to a person other than the cashier.

The imprest fund safe combination was last set by the cashier in August 2009. The cashier told
us that she required the assistance of the U.S. embassy’s regional security officer (RSO) to
disengage the lock prior to setting the combination, and that she had neglected to schedule a
visit. The DMO stated she would immediately request the RSO’s assistance so that the cashier
could change the combination.

        We recommend:

        8. That the cashier change the safe combination at least annually.


VOLUNTEER ALLOWANCES

The post did not conduct living allowance market basket surveys in 2009 and 2010.

Living allowance surveys are the principal means by which a post verifies that the Volunteer
living allowance is adequate and, if not, determines an appropriate adjustment. MS 221.5.7.2
states, “To verify living allowance survey submissions, a Market Basket Survey shall be
conducted by staff…. MS 221.5.7.3 states, “Increases or decreases to the base living allowance
must be based on the findings of the Volunteer living allowance survey, as supported by the
market basket survey….”

The post did not perform market basket surveys in connection with its 2009 and 2010 living
allowance surveys. The living allowance was increased in 2010 as the result of the Volunteer
survey. The DMO told us that not performing market basket surveys was an oversight and that
these would be performed in connection with the 2011 living allowance survey. At the time of
our audit, the post was in the process of conducting its 2011 survey, had performed a market


Final Audit Report: Peace Corps/Panama                                                                            5
basket survey in two cities, and intended to perform a similar survey in a representative large and
small town.

Volunteers rely on the post to provide them with adequate allowances, which are mandated by
Section 2504 of the Peace Corps Act. Complete living allowance surveys help ensure that the
related allowances are adequate.

    We recommend:

    9. That the post conduct a market basket survey in connection with its Volunteer living
      allowance survey and use the results in validating the living allowance survey submissions.


PROPERTY MANAGEMENT

The post’s internal control and procedures over property inventory, and its compliance with
policy, required improvements.

“Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1) issued by
the Government Accountability Office (hereafter, GAO Standards) state, “An agency must
establish physical control to secure and safeguard vulnerable assets.... Such assets should be
periodically counted and compared to control records.” The GAO Standards assert that
“…control activities help to ensure that all transactions are completely and accurately recorded.”
The GAO Standards also require the separation of duties, stating, “Key duties and
responsibilities need to be divided and segregated among different people to reduce the risk of
error or fraud.”

The assistant IT specialist maintained the IT database and performed the physical inventory of IT
property. These responsibilities must be separated to ensure proper internal control over
property and prevent theft and loss. In addition, the post conducted a physical inventory of its
property in April 2011, immediately after its office relocation. However, the administrative
assistant did not compare the results of the physical inventory to the post’s property database.
The property database should have been used to conduct the physical inventory to identify and
document any lost or stolen property. The post began reconciling the physical inventory to the
property database on May 31, 2011.

Our testing of the April 2011 inventory listing indicated that it was in reasonably accurate
condition. We found several items with duplicate tags and two tag numbers that were incorrect
on the listing. We also noted some items in the storeroom that were not being used and/or were
not in usable condition. These included two air conditioners, a stove, a refrigerator, a conference
room table, and miscellaneous office furniture and fixtures. The general services assistant told
us that the post intended to dispose of the unusable items during the next auction.

Adequate and properly implemented internal controls and procedures are essential for effective
accountability and oversight over post property. Control procedures such as segregating




Final Audit Report: Peace Corps/Panama                                                            6
incompatible responsibilities and reconciling inventories with the property inventory database,
are important steps in protecting the property from waste, fraud, and abuse.

        We recommend:

        10. That different persons maintain the information technology inventory database and
            conduct the physical inventory verification.

        11. That the director of management and operations reconcile the physical inventory
            taken after the post’s relocation with the property inventory database and investigate
            discrepancies.




Final Audit Report: Peace Corps/Panama                                                               7
                             QUESTIONED COSTS AND
                          FUNDS TO BE PUT TO BETTER USE
We identified funds to be put to better use, during the course of the audit. They are discussed in
the accompanying audit report and noted below. We did not identify any questioned costs.


                                     Funds to be Put to Better Use


Recommendation
                                                    Description                                   Amount
    number
                        Reduction in vehicles due to the determination to not in
                        the foreseeable future open and maintain a regional office
          3                                                                                       $12,500*
                        and to phase out and eliminate by the end of 2012 one of
                        the post’s five programs.
* Reflects the sale price in 2009 of a Toyota Land Cruiser (the type of vehicle most likely to be disposed of).




Final Audit Report: Peace Corps/Panama                                                                            8
                             LIST OF RECOMMENDATIONS
We recommend:

    1. That the medical supplies inventory control clerk include controlled substances on the
       medical inventory control log and ensure that the log contains accurate quantities and
       expiration dates.

    2. That the country director ensure that the post has obtained the eight missing security
       background updates and that these are placed in the staffs’ contractor files.

    3. That the region and the post, in consultation with headquarter fleet management,
       determine the appropriate number of vehicles required at the post and reduce the number
       of vehicles accordingly.

    4. That the director of management and operations remind post staff of the requirement to
       clear their interim cash advances within three working days and monitor the status to
       ensure that advances are cleared in a timely manner.

    5. That the cashier immediately notify the director of management and operations of
       delinquent interim cash advances for follow-up.

    6. That the post, in coordination with the Office of the Chief Financial Officer, conduct an
       analysis of the cashier’s imprest fund level and take appropriate action based on the
       post’s analysis and the regional cashier monitor’s recommendation.

    7. That the Office of the Chief Financial Officer establish a process for monitoring imprest
       fund requirements on an ongoing basis in order to determine if a further reduction of the
       advance is appropriate in the future.

    8. That the cashier change the safe combination at least annually.

    9. That the post conduct a market basket survey in connection with its Volunteer living
       allowance survey and use the results in validating the living allowance survey
       submissions.

    10. That different persons maintain the information technology inventory database and
        conduct the physical inventory verification.

    11. That the director of management and operations reconcile the physical inventory taken
        after the post’s relocation with the property inventory database and investigate
        discrepancies.




Final Audit Report: Peace Corps/Panama                                                             9
APPENDIX A

                  OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal regulations.
Our audit conclusions are based on information from three sources: (1) document and data analysis,
(2) interviews, and (3) direct observation. Our audits are conducted in accordance with the
government auditing standards prescribed by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

The audit of Peace Corps/Panama covered fiscal years 2009, 2010, and 2011 through April 30,
2011. While at the post, we interviewed key staff including the CD, the DMO, staff responsible
for administrative support, and the lead PCMO. All staff interviewed told us they enjoyed
working at the Peace Corps and interacting with and supporting the Volunteers. We also
interviewed Volunteers to obtain their views on the effectiveness of the post’s administrative and
financial systems in supporting them. Volunteers told us they appreciated the interest shown by
the staff in their success and well-being.

As part of the audit process, we briefed the CD and DMO. At headquarters, we conducted a general
briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, federal regulations, and Peace Corps policies
and initiatives.




Final Audit Report: Peace Corps/Panama                                                          10
APPENDIX B

                                     LIST OF ACRONYMS
 CD                             Country Director
 DMO                            Director of Management and Operations
 IT                             Information Technology
 MS                             Peace Corps Manual Section
 OFMH                           Overseas Financial Management Handbook
 OIG                            Office of Inspector General
 OMS                            Office of Medical Services
 PCMO                           Peace Corps Medical Officer
 PSC                            Personal Services Contracts
 RSO                            Regional Security Officer
 USDO                           U.S. Depository Office




Final Audit Report: Peace Corps/Panama                                   11
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Panama          12
APPENDIX C
Response to the July 2011 Preliminary Report of the Office of Inspector General Financial and
Administrative Audit (Project No. 11-AUD-05) of Peace Corps/Panama:

Medical Supplies

1:       That the medical supplies inventory control clerk include controlled substances on the
         medical inventory control log and ensure that the log contains accurate quantities and
         expiration dates.
         Concur: The Country Director and Director of Management and Operations will update
         the controlled substances quantity and expiration information on the medical inventory
         control log.

         Documents to be included:

     -   Copy of inventory logs with accurate accounting of medications, including controlled
         substances quantities and dates, signed by the MSIC and Country Director.
         Status and Timeline for Completion: October 15, 2011.


Personal Services Contracts

2:       That the Country Director ensures that the post has obtained the eight missing security
         background updates and that these are placed in the staffs’ contractor files.
         Concur: The Country Director will request confirmation of scheduled security
         certifications for (8) PSC staff and ensure that re-certifications are obtained and
         documented in Personal Service Contract files.

         Documents to be included:

         -   Official correspondence between Country Director and Regional Security Officer,
             confirming scheduled re-certification for pending Personal Service Contract staff.

         -   Copies of the (8) recertification clearances once executed.
         Status and timeline for Completion: November 1, 2011.


Vehicle Management

3:     That the region and the post, in consultation with headquarters fleet management,
determine the appropriate number of vehicles required at the post and take appropriate actions as
necessary.




Final Audit Report: Peace Corps/Panama                                                             13
APPENDIX C
        Concur: An updated Vehicle Status Report (VSR) for FY11 will be submitted by the
        Director of Management and Operations along with a fleet analysis and corresponding
        fleet size recommendations.
        Documents to be included:
        -   Updated FY11 Vehicle Status Report.
        -   Analysis of current fleet (e.g., use, mileage, etc.) and post, Volunteer support needs.
        -   Memo confirming a fleet size recommendation.
        Status and timeline for Completion: December 1, 2011.


Imprest Fund Management

4:      That the Director of Management and Operations remind post staff of the requirement to
clear   their interim cash advances within three working days and monitor the status to ensure
that    advances are cleared in a timely manner.
        Concur: The Director of Management and Operations will provide necessary
        documentation, to include copies of reminder emails to appropriate staff and
        documentation of the accurate cash advance log spreadsheet including number of travel
        days per cash advance.
        Documents to be included:
        -   Copy of reminder email(s) to staff.
        -   Copy of updated, accurate cash advance log.
        Status and timeline for Completion: October 1, 2011.


5:     That the cashier immediately notifies the Director of Management and Operations of
delinquent     interim cash advances for follow-up.
        Concur: Post will provide documentation of reminder emails sent from cashier to
        Director of Management and Operations confirming interim cash advance follow up.
        Documents to be included:
        -   Copy of reminder email(s) on delinquent cash advances sent from cashier to
            delinquent staff.
        Status and timeline for Completion: October 1, 2011.


6:      That the post reduce the cashier’s imprest fund permanent advance to based on the
        recommendation of the regional cashier monitor of the State Department’s U.S.
        Depository Office.


Final Audit Report: Peace Corps/Panama                                                            14
APPENDIX C
        Concur: Under currently established procedures the post does not have sole authority to
        alter the cashier’s permanent imprest fund advance level. Chief Financial Officer
        (CFO)/Global Accounts Payable (GAP) reviews all FOR Post analysis and USDO-
        provided analysis to determine the appropriate permanent advance level. CFO/GAP will
        present their analysis to the USDO Cashier Monitor. If the advance needs to be lowered,
        CFO/Accounts Receivable Cash Management (ARCM) will reduce the advance.
        Documents to be included:
        -   E-mail memo provided by Financial Management Officer confirming scheduled,
            biannual post imprest fund analyses and recommendation for the correct imprest
            level.
        Status and timeline for Completion: October 1, 2011.


7:     That the Director of Management and Operations establish a process for monitoring
imprest fund requirements on an ongoing basis in order to determine if a further reduction of
the advance is appropriate in the future.

        Concur: Chief Financial Officer (CFO)/Global Accounts Payable will continue to
review FOR Post analysis and USDO-provided analysis to determine the appropriate
permanent advance level. CFO/GAP will present this analysis to the USDO Cashier Monitors.
If the advance needs to be lowered, CFO/Accounts Receivable Cash Management (ARCM)
will reduce the      advance. The imprest fund requirement monitoring process is established
by the Office of the Chief Financial Officer.
        Documents to be included:
        -   E-mail memo from the Office of the Chief Financial Officer confirming the
            established imprest fund analysis procedure.
        Status and timeline for Completion: October 1, 2011.


8:      That the cashier change the safe combination at least annually.
        Concur: The cashier will change safe combination annually, as required by Manual
        Section 760 5.2 and will provide confirmation of schedule in accordance and
        coordination with the Regional Security Officer at post.
        Documents to be included:
        -   Memo from post, via the U.S. Embassy Regional Security Officer confirming the
            scheduling of post safe combination change on a yearly basis.
        Status and timeline for Completion: November 1, 2011.




Final Audit Report: Peace Corps/Panama                                                          15
APPENDIX C
Volunteer Allowances

9:    That the post conduct a market basket survey in connection with its Volunteer living
allowance     survey and use the results in validating the living allowance survey submissions.
        Concur: Post has agreed to conduct the market basket survey in connection with its
        Volunteer living allowance survey and will use this data to validate living allowance
        submissions.
        Documents to be included:
        -   Market Basket Survey and Living Allowance Survey Analyses.
        Status and timeline for Completion: November 1, 2011.


Property Management

10:    That different persons maintain the information technology inventory database and
conduct the physical inventory verification.
        Concur: Post will provide documentation that separate staff complete technology
        inventory database and physical inventory database.
        Documents to be included:
        -   A memo to each contract file distinguishing that separate staff completes the database
            and physical inventories.
        -   An official email from the Country Director confirming that the separate staff
            designated for the database and physical inventories were appraised of these
            responsibilities.
        Status and timeline for Completion: October 1, 2011.


11:      That the Director of Management and Operations reconcile the physical inventory taken
after the       post’s relocation with the property inventory database and investigate
discrepancies.
        Concur: The Director of Management and Operations will ensure that a physical
        inventory is completed and documented.
        Documents to be included:
        -   Electronic copy of accurate property inventory database.
        Status and timeline for Completion: October 15, 2011.




Final Audit Report: Peace Corps/Panama                                                          16
APPENDIX D

                                         OIG COMMENTS
Management concurred with all 11 of the recommendations. The 11 recommendations remain
open pending receipt and review of documents to be submitted.

Based on discussions with the Inter-American Pacific Region and the Office of Global Accounts
Payable, we revised recommendation 6 to ensure post’s analysis of the imprest fund level is
coordinated with appropriate headquarters offices and redirected recommendation 7 to the Office
of the Chief Financial Officer. In addition, the finding was changed from stating that the imprest
fund level required reduction to the need to conduct the imprest fund level analysis.
Recommendation 12, to identify those items in the storeroom that are not to be used in the future
and dispose of them, was removed based on further information provided by post and region
showing that the items were already in the awaiting sale or disposal status.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Panama                                                          17
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                         Senior Auditor Steven Kaffen performed the audit of Peace
                                         Corps/Panama.




                                         Bradley Grubb
                                         Assistant Inspector General for Audit



OIG CONTACT                              If you wish to comment on the quality or usefulness of this
                                         report to help us strengthen our product, please email Bradley
                                         Grubb, Assistant Inspector General for Audit, at
                                         bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Panama                                                                18
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900
